<html>
<title> - BEIJING AS AN EMERGING POWER IN THE SOUTH CHINA SEA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                  BEIJING AS AN EMERGING POWER IN THE 

                            SOUTH CHINA SEA

=======================================================================


                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 12, 2012

                               __________

                           Serial No. 112-178

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
75-858                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         BRAD SHERMAN, California
EDWARD R. ROYCE, California          ELIOT L. ENGEL, New York
STEVE CHABOT, Ohio                   GREGORY W. MEEKS, New York
RON PAUL, Texas                      RUSS CARNAHAN, Missouri
MIKE PENCE, Indiana                  ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
CONNIE MACK, Florida                 THEODORE E. DEUTCH, 
JEFF FORTENBERRY, Nebraska               Florida<greek-l>
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, CaliforniaUntil 8/
TED POE, Texas                           14/12 deg.
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director 


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Toshi Yoshihara, Ph.D., professor, John A. Van Beuren chair of 
  Asia-Pacific studies, U.S. Naval War College...................     7
Ms. Bonnie Glaser, senior fellow, Freeman chair in China studies, 
  Center for Strategic and International Studies.................    14
Richard Cronin, Ph.D., director, Southeast Asia Program, Stimson 
  Center.........................................................    24
Mr. Peter Brookes, senior fellow, National Security Affairs, The 
  Heritage Foundation (former Deputy Assistant Secretary of 
  Defense for Asian and Pacific Affairs).........................    44

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Toshi Yoshihara, Ph.D.: Prepared statement.......................     9
Ms. Bonnie Glaser: Prepared statement............................    16
Richard Cronin, Ph.D.: Prepared statement........................    26
Mr. Peter Brookes: Prepared statement............................    46

                                APPENDIX

Hearing notice...................................................    76
Hearing minutes..................................................    77
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa: Prepared statement........................    79
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    81
Questions submitted for the record by the Honorable Dan Burton, a 
  Representative in Congress from the State of Indiana...........    82
  Written responses to questions submitted by the Honorable Dan 
    Burton received from:
      Toshi Yoshihara, Ph.D......................................    83
      Ms. Bonnie Glaser..........................................    85
      Richard Cronin, Ph.D.......................................    87


          BEIJING AS AN EMERGING POWER IN THE SOUTH CHINA SEA

                              ----------                              


                     WEDNESDAY, SEPTEMBER 12, 2012

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m. in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order. 
After recognizing myself and the ranking member, Mr. Berman, 
for 7 minutes each for our opening statements, I will recognize 
for 3 minutes the vice chair and the ranking member of the 
Subcommittee on Asia. I will then recognize other members 
seeking recognition for 1 minute. We will then hear from our 
witnesses. And without objection, the witnesses' prepared 
statements will be made a part of the record. And members may 
have 5 days to insert statements or questions for the record. 
The Chair now recognizes herself for 7 minutes.
    This hearing convenes just as the long festering issue of 
the South China Sea has once again boiled to the surface. While 
the world's attention has turned to other crises, including 
Iran's nuclear program and concerns over the faltering euro, 
China has upped the ante, playing the role of a schoolyard 
bully toward its maritime neighbors. From one end to the other 
of the South China Sea, Beijing has increased both in 
belligerence and in bellicosity. Even Chinese Government 
officials, press, and bloggers incited anti-Japanese feelings 
to such a fever pitch that there were anti-Japanese riots in 
Chinese cities just last month.
    We have news for those bullies in Beijing. The United 
States stands by our friends and allies in the Philippines and 
Japan. The United States Navy will continue to preserve the 
peace in the Pacific waters, including the South China Sea, as 
it has done since the end of the Second World War. Beijing also 
apparently looked with trepidation on the Secretary of State's 
visit to the Cook Islands to attend a Pacific Islands 
conference before her stop in Beijing. Beijing has hoped, since 
2005, to entice our Pacific allies away from a honey pot of 
$600 million in economic assistance and low interest loans. Our 
greatest generation, however, did not fight its way from island 
to island across the Pacific, from Midway to Guadalcanal to Iwo 
Jima only to see their descendants pushed back across the 
Pacific by a flood of Chinese cash.
    Why are the South China Sea and other waters so central to 
the Chinese communist mandarins' aspirations to reestablish the 
Middle Kingdom as the dominant power in Asia? Well, these are 
the waterways which control the trade and commerce for some of 
the most dynamic economies in the world, located in both 
Southeast and Northeast Asia. These are the sea lanes through 
which vast amounts of fossil fuel are shipped, which energize 
the economies of Taiwan, South Korea, and Japan. Whoever 
controls these sea lanes can dominate Asia and beyond by 
choking off that commerce of oil shipments to the major 
stakeholders in the Asian economic miracle.
    China, traditionally a land power as symbolized by its 
great wall land barrier, has only recently turned its eyes to 
the seas. This emerging Chinese sea power was originally 
directed toward eventual domination of Taiwan by a potential 
naval blockade. The rumored name of Beijing's first aircraft 
carrier is to be that of a Chinese Admiral who led a sea 
invasion of Taiwan over three centuries ago. But Beijing's 
ambitions for a blue water Navy now extend far beyond the 
Taiwan Strait. China has forward deployed its sea power in the 
resource-rich South China Sea, engaging in naval confrontation 
in 2009 with not only the U.S. Naval ship Impeccable, built in 
my home State of Florida, but more recently, with the 
Philippines and Vietnam as well.
    Beijing has adopted an equally aggressive stance toward 
America's ally Japan in the East China Sea, and has objected to 
U.S. Naval cooperation in the Yellow Sea with our South Korean 
ally. Beijing seeks to dominate its maritime negotiations with 
its neighbors by picking them off one by one rather than 
engaging in the code of conduct regarding the South China Sea.
    Nationalistic young Chinese military officers also have 
reportedly been eagerly studying the century-old writings on 
sea power of an American Admiral. Admiral Mahan's theory, as 
discussed in Red Star Over the Pacific, written by one of our 
witnesses today, reportedly drew the connection between 
thriving commerce and naval supremacy. As the United States 
seeks to restore our citizens' economic well-being, commercial 
ties with the dynamic economies of East and Southeast Asia 
become paramount. Beijing seeks domination of not only the 
South China Sea, but also of the Western Pacific. Therefore, 
the possibility of naval clashes steadily increases. A 
situation where the escalating naval arms race takes place in 
order to control the ocean highways of global commerce is not 
in the interests of the people of the United States, nor of the 
people of Asia.
    Other global crises must not distract from our vital 
national security interests in the South China Sea and the 
Western Pacific. We cannot be indifferent to the potential 
placement in harm's way of our sailors and those of our allies 
like the 46 young South Korean sailors who perished at sea 2 
years ago. We should take a moment to honor the men and women 
in our Armed Forces who, since the days of Pearl Harbor, have 
served to maintain the peace in the Asia-Pacific region.
    As an old naval hymn States, ``Oh, hear us when we cry to 
Thee, for those in peril on the sea.'' I look forward to 
hearing from our distinguished set of panelists on how best to 
address China's growing challenge to America's naval strategy.
    And now I turn to my friend from California, the 
distinguished ranking member, for his opening remarks. Mr. 
Berman is recognized.
    Mr. Berman. Thank you very much, Madam Chairman. And my 
poetry will not be up to yours today, but I thank you very much 
for calling the timely hearing. Over the past few months, 
tensions in the South China Sea have escalated. In the past, 
territorial disputes in the region have been contained after 
cooler heads prevailed and diplomatic solutions achieved. And I 
hope this current situation follows a similar pattern. But what 
is different this time is that the tensions have been stoked by 
China's increasingly aggressive actions.
    Five other countries, along with China, claim ownership of 
parts of the South China Sea. But China's territorial claims 
are unusually expansive and intentionally vague. And while 
China is not the only claiming country to take unilateral 
actions to assert its control over territory and resources, 
Beijing's actions are, by far, the most provocative. China has 
threatened and damaged foreign ships, unilaterally declared a 
fishing ban for part of the year in half of the South China 
Sea, and arrested foreign fishermen who did not comply.
    Beijing has also increasingly militarized the region. It 
has established a new military garrison in the Paracel Islands, 
and announced the beginning of regular combat-ready patrols in 
disputed areas of the South China Sea. These actions run 
directly counter to the diplomatic efforts to resolve 
differences, and risk further heightening regional tensions. 
They also undermine Beijing's assurances to its neighbors and 
the world that China seeks a peaceful rise. The immediate 
priority in the South China Sea is to deescalate tensions and 
to encourage all parties to refrain from taking tit-for-tat 
actions that could lead to conflict. Stepping back from the 
crisis is in all parties' interests, as the potential costs of 
conflict in the region far outweigh any of the potential 
economic benefits contained in the sea bed of the South China 
Sea.
    The political leadership in the claiming countries should 
also make efforts to cool domestic public opinion, which is 
stoked by strident nationalist sentiments. The United States 
has a strong national interest in the maintenance of peace and 
stability, freedom of navigation, unimpeded lawful commerce, 
and ensuring a peaceful resolution of claims in the South China 
Sea accepted by all countries.
    Secretary Clinton and other top officials in the Obama 
administration have repeatedly made clear to Beijing that we 
will not allow China to assert its hegemony over the region, 
and we must continue to press China to resolve its claims 
peacefully.
    I thank the panel of experts for being here with us today. 
I look forward to your testimony and hearing what steps can be 
taken to ensure that the South China Sea does not devolve into 
hostile conflict. And I yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Berman.
    Mr. Rohrabacher, the chairman of the Subcommittee on 
Oversight and Investigations, is recognized.
    Mr. Rohrabacher. Thank you very much, Madam Chairman. Thank 
you for holding this hearing. Obviously, China is an issue, and 
the Chinese expansionism is an issue that I have been deeply 
involved in over the years. But let me just state, in light of 
today's horrible news from the Middle East, that this 
administration's response to the murder of our Ambassador, and 
yes, his staff, in Libya, as well as the burning down of the 
consulate there and the storming of our Embassy in Cairo, the 
response of this administration has not been acceptable. It 
suggested, the response suggested an understanding of Muslim 
rage toward a negative portrayal of their religion. There is no 
understanding of that type of violence. And this is not seen as 
a sensitivity by the Muslim world. It is seen as a weakness 
toward their most radical elements.
    This administration has refused to call these type of 
murders over the years, whether it is a Muslim terrorist or 
whether it is Chinese militarists in the South China Sea, by 
their right name. We should have the courage to stand up or we 
will not have a peaceful world.
    Chairman Ros-Lehtinen. Thank you, Mr. Rohrabacher.
    Mr. Faleomavaega is recognized. He is the ranking member on 
the Subcommittee on Asia and the Pacific.
    Mr. Faleomavaega. Madam Chair, I want to thank you and our 
ranking member, Mr. Berman, for your leadership and support of 
H.R. 6313. I would also like to ask unanimous consent that the 
full text of my statement be added to the record.
    Chairman Ros-Lehtinen. Without objection.
    Mr. Faleomavaega. And I want to thank you. For the 30 
seconds that I have remaining, I don't have much else to say 
other than to express my deepest----
    Chairman Ros-Lehtinen. Mr. Faleomavaega, excuse me if I 
interrupt, you have more time because of your position as the 
ranking member.
    Mr. Faleomavaega. As I was saying, even though things like 
this happen, I want to say that for those of us as members of 
the committee who have had opportunities in visiting our 
Embassies and consulates throughout the world, I know and I 
share with your sentiments, and Ranking Member Berman, of what 
has happened in this tragedy. And as a member of the committee, 
I do want to express our deepest condolences and sympathies to 
the late Ambassador, Chris Stevens, and the three members of 
our Embassy staff who were killed in this senseless violence 
that just occurred.
    As I am sure those feelings are the same for all the 
members of the committee. Madam Chair, not wanting to detract 
from the purpose of our meeting this morning, the United States 
does have a national security and economic interest in what is 
happening now in the South China Sea, the East China Sea, or 
the Yellow Sea, or has often occurred.
    South China Sea contains vital commercial shipping lanes 
and points of access between the Indian Ocean and the Pacific 
Ocean. It provides maritime lifeline to Taiwan, to Japan, and 
to the Korean Peninsula. While China, Vietnam, the Philippines, 
Taiwan, Malaysia and Brunei have disputed territorial claims, 
China claims most of the 648,000 square miles of the South 
China Sea, more than any other Nation involved in these 
disputes. China's claim, if enacted, would make Vietnam a land-
locked country, and this is neither right nor fair. Madam 
Chair, I look forward to hearing from our witnesses this 
morning. This issue is very serious. I certainly hope that 
China would use better discretion to finding a resolution to 
this very serious matter. I yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. 
Faleomavaega.
    Mr. Turner of New York is recognized.
    Mr. Turner. Thank you, Madam Chair. I am interested in 
hearing what our expert witnesses have to say, particularly in 
regard to the consequences of a reduced Navy presence and a 
reduced Navy budget. Also, I would like to hear what they have 
to say about the potential of cooperation with Japan and South 
Korea, rich nations that could do more in naval defense, and if 
there is a great potential for that. I yield back. Thank you.
    Chairman Ros-Lehtinen. Thank you, sir. Mr. Keating is 
recognized.
    Mr. Keating. Madam Chair, I will yield back my time. I 
would like to hear from our witnesses.
    Chairman Ros-Lehtinen. Thank you. Mr. Murphy?
    Mr. Murphy. Yield back.
    Chairman Ros-Lehtinen. Thank you. Mrs. Schmidt.
    Mrs. Schmidt. First, I want to send my condolences to the 
people in Libya, our American Embassy people who have been 
mortally wounded and those that have died. It was an 
unthinkable act. And we all need to pray for their families as 
we go forward. I am looking forward to the hearing today. It is 
very important to keep all waters open as we move toward global 
trade more and more actively every day. So I am looking forward 
to hearing from the witnesses. Thank you.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Sherman, the ranking member on the Subcommittee on 
Terrorism, Nonproliferation, and Trade is recognized.
    Mr. Sherman. I will echo all of those who have expressed 
our regret and sadness at the events in Benghazi, the death of 
Ambassador Chris Stevens. As it happens, my wife is a diplomat 
with the State Department. I have always known that that is 
both important and sometimes dangerous work. As to the issue 
that is before us today, I echo Mr. Turner in stating that we 
ought to be focusing a bit on burden sharing. We did in the 
Cold War against the Soviet Union. And those nations in the 
Asia-Pacific region, particularly those that have concerns 
about Chinese expansionary claims, ought to be devoting a 
reasonable portion of their GDP to their own naval defense. And 
I yield back.
    Chairman Ros-Lehtinen. Thank you, Mr. Sherman. Mr. Duncan 
of South Carolina.
    Mr. Duncan. Thank you, Madam Chairman. I echo my 
colleagues' concern about the events on the ground in Libya and 
Egypt, and just want to express my sympathy for those who have 
lost lives and families that are concerned around the world. I 
visited with the Filipinos in June 2011. And their concerns 
were the Chinese excursion into the South China Sea, 
specifically around the Spratlys. And while the Chinese were 
there, the available, potential resources that might be 
available there. We see China going all around the world 
gobbling up access to minerals. And I think this is an example. 
I would love to hear more about that in this hearing. I yield 
back.
    Chairman Ros-Lehtinen. Thank you very much. Mr. 
Fortenberry, the vice chair on the Subcommittee on Africa, 
Global Health, and Human Rights, is recognized.
    Mr. Fortenberry. Thank you, Madam Chair. And thank you for 
earlier having a moment of silence in memory of our lost 
diplomats. I would like to turn my opening comments and my 
opening here to that situation. Last year an intense debate was 
underway in Congress as to how to respond to the turmoil in 
Libya. The imminent slaughter of the people of Benghazi by 
former dictator Qadhafi led the United States to sustain a NATO 
coalition to stop the bloodshed. Now our Ambassador, Chris 
Stevens, is dead, killed by the very people that we saved. 
Americans can tolerate ingratitude, we can tolerate insult, but 
we cannot tolerate the senseless killing of the official 
representative of our country and those who served with him, 
three others.
    The governing structures of Libya must respond in the 
strongest way. They should publicly state their condemnation 
and commitment to restoring order. Democracy is not an 
election, it is the understanding of the protection of the 
inherent dignity and rights of each person within the 
structures that bring about the just rule of law. We honor 
Ambassador Stevens, Foreign Service Officer Sean Smith, and two 
others whose names I do not yet have for their heroic service. 
And may they rest in peace. I yield back.
    Chairman Ros-Lehtinen. Thank you. Thank you, Mr. 
Fortenberry. Well said. And the Chair--I am sorry, Mr. Kelly. 
Mr. Kelly yields back. Thank you. The Chair is pleased to 
welcome our witnesses. First we welcome Professor Toshi 
Yoshihara. Thank you, Professor. He is the John A. Van Beuren 
chair of the Asia-Pacific studies at the U.S. Naval War 
College, and an affiliate member of the China Maritime Studies 
Institute at the War College. Dr. Yoshihara is most recently 
the co-author of ``Red Star Over the Pacific: China's Rise and 
the Challenge to U.S. Maritime Strategy,'' to which I referred 
to in my remarks. His articles on maritime issues and naval 
strategy have appeared in numerous journals and periodicals. We 
welcomes you, Professor.
    Then we will hear from Bonnie Glaser, who is a senior 
fellow and the Freeman chair in China studies at the Center for 
Strategic and International Studies. Prior to joining CSIS, Dr. 
Glaser served as a consultant for various U.S. Government 
offices, including the Departments of Defense and State. She is 
currently a board member of the U.S. Committee on the Council 
for Security Cooperation in Asia-Pacific, and is a member of 
the Council of Foreign Relations.
    I am pleased to welcome Dr. Richard Cronin, the director of 
the Southeast Asia Program at the Stimson Center. Dr. Cronin 
works on trans-boundary and nontraditional security issues in 
Southeast Asia from a political economic standpoint. He joined 
the Stimson Center after a long career at the Congressional 
Research Service. We welcome you, Dr. Cronin.
    And we welcome back Mr. Peter Brookes to our committee, a 
senior fellow for national security affairs at the Heritage 
Foundation. Previously, Mr. Brookes served as the deputy 
assistant Secretary of Defense for Asian and Pacific Affairs in 
the George W. Bush administration, and previously a 
professional staff member of this committee. A retired 
decorated Navy commander, Mr. Brookes served in active duty in 
Asia, Latin America, and the Middle East.
    So we will welcome all of our witnesses today. And I ask 
that you keep your presentations to no more than 5 minutes. And 
without objection, your entire statements will be inserted into 
the hearing record. Dr. Yoshihara, we will proceed with you. 
Thank you, sir.

  STATEMENT OF TOSHI YOSHIHARA, PH.D., PROFESSOR, JOHN A. VAN 
  BEUREN CHAIR OF ASIA-PACIFIC STUDIES, U.S. NAVAL WAR COLLEGE

    Mr. Yoshihara. Thank you for having me. Madam Chair and 
members of the committee, thank you for the opportunity to 
share my views on China's maritime strategy and what it means 
for the future of the South China Sea. The following remarks, 
which express my views alone and do not represent the views of 
the U.S. Navy, summarize the prepared statement submitted to 
the committee.
    In my judgment, China's recent assertiveness in the South 
China Sea is a harbinger of things to come. Beijing's sea power 
project has opened up new strategic vistas for Chinese leaders 
and military commanders. With larger and more capable seagoing 
forces at its disposal, Beijing is well positioned to fashion 
sophisticated strategies that will be more effective and 
equally difficult to counter.
    Before delving into Chinese strategy, I think it is worth 
emphasizing the material dimension of Chinese sea power, which 
is providing Beijing with the tools to pursue its ambitions. 
Sea power is more than just a navy. Rather, it is a continuum 
that gives Beijing a range of options. And China is modernizing 
and expanding across the board, from its navy to its sister 
services, to its civilian agencies. In short, Beijing already 
possesses diverse elements of sea power to defends its nautical 
prerogatives.
    Let me now turn to the challenges that Beijing's burgeoning 
sea power already poses to the region. For the purposes of this 
testimony, I would like to confine my remarks to strategies 
that China has already employed or is in a position to 
implement vis-a-vis weaker local players in Southeast Asia.
    In the event of crises between China and relatively weak 
southeast Asian powers, innovative combinations of military 
forces could be used to compel the will of Beijing's southern 
neighbors. Consider the anti-ship ballistic missile, a 
maneuverable ballistic missile capable of hitting moving 
targets at sea. If it performs as advertised, the reach of such 
shore fire support over the entire South China Sea would ease 
the burdens on the Chinese fleet, while applying constant 
pressure on challengers to Beijing's interests in peacetime. 
This type of gunboat diplomacy with Chinese characteristics is 
conceivable in the future.
    China's ability to exercise the nonmilitary elements of its 
sea power was on full display during the standoff with the 
Philippines this past spring. The Scarborough Shoal face-off 
involved Coast Guard-like noncombat vessels. Employing non-navy 
assets revealed a sophisticated, methodical strategy for 
securing China's maritime claims. The use of nonmilitary means 
eschews escalation, while ensuring that disputes remain 
localized. Specifically, it deprives the United States the 
rationales to step in on behalf of embattled capitals in the 
region.
    At the same time, noncombat ships empower Beijing to exert 
low grade but unremitting pressure on rival claimants to South 
China Sea islands and waters. Constant patrols can probe 
weaknesses while testing political resolve. Keeping disputes at 
a low simmer, moreover, grants China the diplomatic initiative 
to turn up or down the heat as strategic circumstances warrant.
    A series of showdowns may pass without an end in sight, or 
any tangible gain for China. But the cumulative effects of a 
continuing stalemate could induce strategic fatigue that, in 
turn, advances China's aims. Short of a shooting war, Chinese 
provocations are too slight for the United States to intervene 
militarily.
    As China pushes and probes, the prospects of recurring 
confrontations with little hope of direct U.S. intervention 
could weigh heavily on Southeast Asian capitals. Applied with 
discipline and patience, such a strategy of exhaustion could 
gradually erode regional confidence and undermine the political 
will to resist.
    Fortunately, there is still time. China is at least a 
decade from amassing the type of preponderant sea power that 
can keep the United States out of the South China Sea while 
running roughshod over Southeast Asian states. In the meantime, 
Washington can adopt measures to ensure that regional 
submission to China's wishes is not a foregone conclusion.
    First, Washington and its allies and friends should 
actively help Southeast Asian states help themselves. Local 
actors must possess some indigenous capability to cope with 
Chinese encroachments at sea.
    Second, the United States should encourage the development 
of a region-wide information sharing arrangement to keep track 
of China's maritime forces.
    Third, the United States should draw up plans that would 
enable the rapid deployment of units armed with maritime strike 
capability on friendly or allied soil. Finally, the U.S. Navy 
should revisit prevailing assumptions about sea control. A far 
more lethal nautical environment lies in store for a service 
long accustomed to uncontested waters.
    Raising the cost of China's assertiveness in the South 
China Sea would complicate Beijing's calculus, while inclining 
Chinese leaders to think twice before they act. Inducing 
Chinese caution, moreover, would apply a brake to Beijing's 
momentum at sea, brightening the prospects for restoring 
equilibrium to the region and for retaking the strategic 
initiative. Thank you.
    Chairman Ros-Lehtinen. Thank you very much, Professor.
    [The prepared statement of Mr. Yoshihara follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Ms. Glaser, thank you.

STATEMENT OF MS. BONNIE GLASER, SENIOR FELLOW, FREEMAN CHAIR IN 
 CHINA STUDIES, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Ms. Glaser. Madam Chairman, Ranking Member Berman, 
distinguished members, thank you for inviting me to appear 
before your committee today to provide testimony on China as an 
emerging power in the South China Sea. The territorial and 
maritime disputes in the South China Sea pose a major test of 
China's peaceful rise. In my written testimony, I list numerous 
examples of recent destabilizing activity in the region. And I 
conclude that there is a negative action-reaction cycle in the 
South China Sea. However, it is important to note that China's 
claims, policies, ambitions, behavior, and capabilities are 
significantly different from those of other actors.
    China's 9-dash line claim is expansive and vague. Beijing 
resists engaging in multilateral discussions on the territorial 
and maritime disputes in the region, preferring bilateral 
mechanisms where it can apply leverage over smaller, weaker 
parties.
    China's behavior in the South China Sea is deliberate and 
systematic. Its actions are not the unintentional result of 
bureaucratic politics and poor coordination. The clear pattern 
of bullying and intimidation of other claimants is evidence of 
a top leadership decision to escalate China's coercive 
diplomacy. This has implications not only for the Philippines 
and Vietnam, the primary targets of China's coercive efforts, 
it also has broader regional and global implications.
    First, China's propensity to flout international laws and 
norms is worrisome, and it sets bad precedents. The result of 
Beijing's refusal to abide by its verbal agreement with Manila 
to withdraw all of its ships from the lagoon in the area around 
Scarborough Shoal is that a new status quo has been established 
that favors Chinese interests. No country has publicly 
condemned this action, and this has set a dangerous precedent.
    Second, China's increased willingness to employ economic 
leverage to coerce countries to modify their policies in 
accordance with Beijing's wishes is a worrying trend. China's 
move to quarantine imported tropical fruit from the Philippines 
to pressure it to cede control over Scarborough Shoal was a 
flagrant breach of international norms. And this follows 
Chinese blocking of rare earth minerals to Japan in retaliation 
for Tokyo's detention of the captain of a Chinese fishing 
trawler in 2010.
    If China's economic coercion continues to go unchallenged, 
undoubtedly such tactics will be used again and again. And a 
growing number of nations in the world whose economies are 
increasingly dependent on trade with China are vulnerable to 
such pressure. Third, China's unwillingness to undertake 
serious diplomacy to resolve disputes should be a cause for 
concern, along with its rejection of a rules-based framework 
that would restrain the actions of all parties. In the future, 
China will not only be a major economic power, but also a major 
political and military power. Beijing calculates that time is 
on its side, and it does not want to be constrained by binding 
agreements.
    It is my estimation that China's pattern of assertive 
behavior on issues related to sovereignty will continue after 
the Chinese leadership transition takes place for the following 
reasons: First, legitimacy. Because the party bases its 
legitimacy in large part on nationalist credentials, no Chinese 
leaders will take early steps to curb domestic pressure to 
firmly defend Chinese sovereignty territorial integrity. 
Second, personality. Xi Jinping is widely believed to be highly 
self-confident. He is likely to stand up for Chinese interests 
in the international arena, especially those deemed to be 
China's core interests, which include issues related to 
sovereignty.
    And third, interests. Beijing has drawn the conclusion that 
Deng Xiaoping's policy toward managing the South China Sea 
disputes has failed. A new, tougher policy will likely emerge 
after the leadership transition.
    Finally, I would like to offer a few policy 
recommendations. The Obama administration has rightfully 
enunciated a set of principles to guide behavior in the South 
China Sea. It is important that the U.S. hew closely to these 
principles and censure any party that acts contrary to them. 
Being objective and fair will give credibility to the U.S. 
policy. Secondly, the U.S. should urge all claimants to the 
South China Sea to bring their maritime claims in conformity 
with the U.N. Convention on the Law of the Sea. It should then 
encourage joint development agreements to extract resources.
    Third, the U.S. should continue to press China and ASEAN to 
initiate negotiations on a code of conduct that contains a 
dispute settlement mechanism. Once the process of negotiation 
begins, it is likely to have a calming effect that will defuse 
tensions. Fourth, it is imperative that the U.S. continue to 
strengthen our economic, diplomatic, and military engagement in 
East Asia. The rebalancing of U.S. strategic priorities to Asia 
is essential to ensure that the peace and stability that has 
prevailed in the region for the past two decades endures.
    And finally, the United States should ratify the U.N. 
Convention on the Law of the Sea to increase the effectiveness 
of U.S. efforts to pursue a rules-based approach to managing 
and resolving disputes over maritime jurisdiction. Thank you, 
Madam Chair.
    Chairman Ros-Lehtinen. Thank you very much.
    [The prepared statement of Ms. Glaser follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Dr. Cronin.

 STATEMENT OF RICHARD CRONIN, PH.D., DIRECTOR, SOUTHEAST ASIA 
                    PROGRAM, STIMSON CENTER

    Mr. Cronin. Thank you very much, Madam Chair.
    Chairman Ros-Lehtinen. Bring the microphone closer to you.
    Mr. Cronin. Yes, I will. Thank you. I am pleased and 
honored to have an opportunity to testify on this very 
important and even urgent issue. If I may say a word about the 
Stimson Center. We are a non-profit, nonpartisan institution 
devoted to enhancing international peace and security through a 
unique combination of rigorous analysis and outreach. Stimson's 
approach is pragmatic, geared toward providing policy 
alternatives, solving problems, and overcoming obstacles to a 
more peaceful and secure world. I am speaking for myself, and 
not Stimson, but my remarks are intended to contribute to these 
objectives.
    China's rise and its ambitions to make up for past 
centuries of humiliation and become the dominant power in East 
Asia and Southeast Asia is probably the most important 
geostrategic issue facing the United States in the 21st 
century. In the South China Sea and elsewhere, including other 
parts of East Asia, the maritime territorial disputes are the 
product of a shrinking world and a combination of natural 
resources that have ever increasing value because of the fast 
growing imbalances between supply and demand. For the United 
States, as well as China's neighbors, the most challenging 
aspect is its lack of commitment to a rules-based international 
system except as serves its perceived national interests. This 
aspect of Beijing's policies and actions is nowhere more 
apparent and challenging than in the case of the South China 
Sea, which is a locus of serious and potentially volatile 
maritime territorial disputes.
    Of particular concern to the United States, which maintains 
a significant military presence in the region, is the fact that 
China is seeking to redefine the very definition of 
international waters, traditionally known as the high seas, by 
asserting rights of sovereignty where none exist. While the 
Chinese Government has negotiated and committed to numerous 
international agreements, based on prevailing international 
laws, rules and practices, its strong preference, as Bonnie has 
already pointed out, is for bilateral agreements based on 
political relationships and power disparities that favor China 
rather than multilateral agreements that are based on 
established rules and norms. These tendencies are particularly 
troubling in China's expansive claims in the semi-enclosed 
South China Sea, one of the world's most geographically and 
commercially important bodies. The South China Sea has globally 
important fisheries and undersea oil deposits and gas, which 
are still largely unexplored, but already vital to the energy 
needs and economies of five other coastal and archipelagic 
neighbors, Vietnam, Malaysia, Indonesia, Brunei, and the 
Philippines.
    Since about 2009, incidents at sea involving China and 
several neighbors, especially Vietnam and the Philippines, have 
become more frequent and more serious. And I will skip 
describing the situation at Scarborough Shoal with the 
Philippines and other incidents with Vietnam in the interests 
of time. The single greatest obstacle to resolving maritime 
disputes in the South China Sea is a fundamental divide between 
China on one side and the Southeast Asian claimants on the 
other over both competing territorial claims and the rights to 
the seas around them. Most of the current issues relate to 
provisions of the United Nations Convention on the Law of the 
Sea, commonly known as UNCLOS, as has already been mentioned.
    The main purpose of UNCLOS was to bring order to a chaotic 
rush involving numerous coastal nations, including the United 
States, during the Truman administration to lay claim to 
offshore natural resources that was already underway. UNCLOS 
has served its purpose well in generating recognized EEZs, that 
is exclusive economic zones, and facilitating resolution of 
disputes in many parts of the world that has become a huge 
source of contention in the South China Sea.
    The most controversial issue of principle in international 
law is China's claim to roughly 90 percent of the South China 
Sea on the basis of past discovery and historical use. To the 
consternation of every other South China Sea neighbor, and with 
no basis under UNCLOS or any other international law, China's 
maps include a so-called U-shaped line colloquially known as 
the Cow's Tongue because of its drooping shape. There is a map 
in my testimony on this with this line. And on one hand it is a 
subject of derision by every country, but on the other hand, 
the Chinese are not only--it is not only a nominal notion of 
their claim, but as you may know recently, China actually 
announced the opening of nine oil development blocks 
essentially where the line cuts deeply into Vietnam's economic 
zone in the Continental Shelf.
    Chairman Ros-Lehtinen. If you could wrap up, Dr. Cronin.
    Mr. Cronin. Pardon?
    Chairman Ros-Lehtinen. If you could wrap up.
    Mr. Cronin. Okay. I will wrap up. Thank you very much. In 
my statement, I talk about the negative impact on ASEAN, which 
I think everyone is aware, including the failure to achieve a 
communique, a final communique at the ASEAN meetings in Phnom 
Penh this summer, this July. The other thing that I have 
written about and would mention is simply that China's 
declaration of the so-called Sansha City, which is on a tiny 
Yongxing Island, otherwise known as Woody Island, that 
effectively creates an administrative zone over not only the 
islands of the South China Sea, but also submerged areas like 
the Macclesfield Bank, and of course the Scarborough Shoal.
    In my testimony, there is a map showing which countries 
occupy which islands in the sea. So, okay, let me just wrap up 
then in this way.
    U.S. policy implications--in my statement, I have kept 
remarks on U.S. policy relatively brief, thinking it might be 
more useful to discuss this issue in response to your questions 
and comments. With its rising naval power, China could, in 
theory, enforce its claims despite the complaints of its 
neighbors, but only at serious risk to other important 
equities, Chinese equities, starting with the desire not to 
unite its neighbors against it. The commitment of the United 
States not to be pushed out of the South China Sea, including 
the so-called rebalancing of U.S. military forces toward the 
Asia-Pacific region, also has a deterrent effect, much as China 
rails against what it sees as a growing U.S. effort to contain 
China and deny it the fruits of its rising power status.
    Chairman Ros-Lehtinen. Thank you very much, Dr. Cronin.
    Mr. Cronin. Thank you.
    [The prepared statement of Mr. Cronin follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you so much. Mr. Brookes.

    STATEMENT OF MR. PETER BROOKES, SENIOR FELLOW, NATIONAL 
   SECURITY AFFAIRS, THE HERITAGE FOUNDATION (FORMER DEPUTY 
 ASSISTANT SECRETARY OF DEFENSE FOR ASIAN AND PACIFIC AFFAIRS)

    Mr. Brookes. Thank you, Madam Chairman, members of the 
committee. Thank you for the kind invitation to appear today. 
It is great to be back in the committee room after an absence. 
I want to commend the committee for holding this timely hearing 
today. It is very important. I am glad you are here doing that. 
The views I express today are mine, and do not reflect those of 
any of the organizations I may be associated with, including 
the Heritage Foundation. Based on the thoughtful testimony so 
far, I feel like everything has been said, but not everybody 
has said it. With that in mind, let me make a few points which 
I think will complement my written testimony.
    First, I would suggest that China is not an emerging power. 
Outside the United States, it is the major or dominant power in 
the South China Sea. We should fully recognize that. As a major 
power, China has arrived. China is developing a navy and air 
force, including missiles, that will be able to assert China's 
claims in the South China Sea. Their aircraft carrier, of which 
there may eventually be a number, their ballistic missile 
programs, stealth fighters, destroyers, and submarines. Absent 
significant U.S. basing in Southeast Asia, China's aircraft 
carrier program, when fully operational, I think could be a 
game changer. While China will seek to assert its claims 
peacefully, Beijing could easily militarize the situation.
    In any case, other regional players already know of China's 
growing military capabilities and will be deterred by them. I 
think the Chinese actions in the South China Sea put the matter 
of China's peaceful rise into serious question. The question, 
of course, is what to do about it. Here are some ideas which go 
beyond my written testimony. It is my sense that friends and 
allies in the region need diplomatic reassurance about our 
enduring presence in the region. I sense we are trying do this. 
The question is about its effectiveness. Do they really believe 
it? I sense people are really, really nervous about the 
American presence, future presence in the region, as well as 
the rise of China. But my real concern is our ability to 
project force into the South China Sea with the looming budget 
cuts and sequestration that face us in January under the Budget 
Control Act.
    You all know the numbers. I don't need to tell you about 
the defense budget and the effects on our force structure and 
what they might be, especially for our Navy, especially as a 
Navy veteran. With budget cuts and other global commitments and 
obligations, that powerful pivot we talk about may be little 
more than a pirouette. Diplomacy is always more effective when 
backed up by a strong national defense. We also must take steps 
to distance ourselves from the notion that America is in 
decline, especially in Asia. Unfortunately, in some corners I 
think that is the perception. Strong American leadership is 
required, whether we are talking about Asia or anywhere else in 
the world. Of course, any and all of these actions meant to 
stem perceptions of the Sun setting on America in the Pacific 
will be helped by returning this Nation to economic vitality, 
which undergirds our political and military power. Thank you, 
Madam Chairman. I look forward to your questions.
    Chairman Ros-Lehtinen. Thank you very much. Thank you for 
excellent testimony.
    [The prepared statement of Mr. Brookes follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. I will begin the question and answer 
segment. Our Defense Department issued an annual report on 
military and security developments in the People's Republic of 
China. And it discussed in detail the construction of this new 
naval base in the South China Sea. And our report states that 
the base is large enough to accommodate the mix of nuclear 
power attack and ballistic missile submarines and advanced 
surface combatants, including aircraft carriers.
    Submarine tunnel facilities at the base could also enable 
deployments from this facility with reduced risk of detection. 
So I ask the panelists, could the continued Chinese naval 
build-up in the South China Sea and the Western Pacific 
eventually limit our U.S. Navy ability to patrol these waters, 
which would, of course, adversely impact the security and 
economic well-being of the American people and our allies in 
the Asian and Pacific region?
    And secondly, about the U.S. allies' naval confrontation 
with China, looking at what has just been happening recently, 
in April Chinese maritime surveillance vessels began a 10-day 
standoff with a Philippine coast guard cutter in the South 
China Sea. Then in July, Chinese patrol boats had a similar 
confrontation with the Japanese coast guard in the East China 
Sea. And last December, the captain of a Chinese fishing boat, 
illegally poaching in the Yellow Sea, killed a South Korean 
coast guard officer.
    So if a naval confrontation between Chinese vessels and a 
U.S. treaty ally such as the Philippines, Japan, or South Korea 
ever results in an exchange of gunfire, what are the treaty 
obligations of the United States Navy to come to the assistance 
of these allies? We will begin with the professor.
    Mr. Yoshihara. Thank you for those questions. Let me focus 
my attention on your first question about the Chinese naval 
buildup in the South China Sea. I think it is very important to 
note as a premise that the South China Sea is sort of a 
strategic pivot. It is a body of water that connects the 
Western Pacific and the Indian Ocean. It is at the junction of 
these two very important oceans that supports trade between 
Europe, Middle East, and East Asia, as well as trans-Pacific 
trade. So having command or having the capacity to control 
events in the South China Sea would give China tremendous 
amounts of strategic influence and power. Here are a couple of 
things that motivate China to, in fact, continue this buildup.
    First of all, having a naval base in Sanya on Hainan Island 
gives China an additional naval option with their nuclear 
attack submarines. These nuclear attack submarines can be used, 
for example, to break out into the Western Pacific to deter 
U.S. naval operations and air operations and other military 
operations related----
    Chairman Ros-Lehtinen. I going to interrupt you there, 
Professor, just to give the others a chance, if I may. Thank 
you. Ms. Glaser.
    Ms. Glaser. Yes. First, I would say briefly the United 
States overall will face Chinese growing military capabilities 
a less permissive environment. It will be more costly for the 
United States to exercise the kind of sea control we have now 
in the future. And we will have to think through what is the 
best way to address that. The capabilities that China is 
deploying in Hainan is just among those capabilities.
    There are, of course, many more: Development of ballistic 
and cruise missiles, anti-satellite weapons, et cetera. 
Regarding your second question, I am not an attorney, and the 
interpretation of the law is important when we look at 
treaties. But administration officials of course have made 
clear that we do have treaty obligations to Japan in the case 
of the Senkakus.
    We remain neutral, of course, on the sovereignty over those 
islands. But we do recognize that the Japanese have 
administrative control over those islands. And so if the 
islands were attacked, the United States, my understanding, is 
obligated under Article 5 of that treaty. It is a bit less 
certain I think in the case of the Philippines. There isn't the 
same language in the treaty that refers to administrative 
control.
    Chairman Ros-Lehtinen. Thank you. I will just interrupt you 
there a second.
    Ms. Glaser. Can I just finish just this sentence?
    Chairman Ros-Lehtinen. Yes.
    Ms. Glaser. Sorry. I was just going to add if the 
Philippines' naval forces were attacked, regardless of where 
they were, I do believe that we would have an obligation to 
come to their defense.
    Chairman Ros-Lehtinen. Thank you. Dr. Cronin, a minute.
    Mr. Cronin. I will just leave the military issues to the 
military experts, except to say that obviously, the U.S.-China 
military balance, if you will, is a distinct issue, but it is 
also connected to the politics of the region and our 
relationships with not only China, but with our allies and 
partners. Thank you.
    Chairman Ros-Lehtinen. Thank you. Mr. Brookes.
    Mr. Brookes. We face the tyranny of distance in the 
Pacific. And if we don't have the correct number of platforms--
--
    Chairman Ros-Lehtinen. Tyranny of distance.
    Mr. Brookes. Tyranny of distance, that is right, when 
people talk about that because it is such a big theater. If we 
don't have the numbers of platforms needed to project that 
power, if we don't have the basing for refurbishment and 
replenishment, we can't be a player. On the treaty, I would 
suggest that you ask the Congressional Research Service to tell 
you that. I have always operated under the belief that all of 
our treaty obligations, including those of NATO, require us to 
go through our constitutional processes of each country before 
any action would be taken, military or otherwise.
    Chairman Ros-Lehtinen. Thank you very much. I am pleased to 
yield to Mr. Berman for his question-and-answer period.
    Mr. Berman. Thank you very much, Madam Chairman. Dr. Cronin 
near the end of his testimony seemed to be saying that China's 
activities in the South China Sea sort of are constrained by 
its desire not to see all of its neighbors united against it. I 
would like the panelists to react to that. I look at it, and I 
am wondering does China really have that constraint on them 
these days, or do they not think that they can pretty much do 
what they want to do here because of some combination of their 
military power and their economic power and their political 
power is going to keep that from happening? I am curious.
    Ms. Glaser, perhaps you or others could just react to this 
constraint that presumably exists on China's behavior.
    Mr. Yoshihara. Just very briefly, at least in terms of 
certain segments of China's strategic community, there is a 
belief that China's time has come, that China has already 
risen, and that it is time to shed this notion that China 
should keep low until it becomes powerful enough. I think there 
are those in China's strategic community that believe that 
China is already powerful enough. And some of the disturbing 
statements that we have heard that small powers had better 
listen to big powers are thinly veiled sort of, you know, 
threats to the smaller states that the power that China has 
accrued has increasingly given it the capacity to essentially 
coerce and intimidate its neighbors.
    Mr. Berman. Is that an open question in China, or is that a 
strategy that has been now incorporated?
    Mr. Yoshihara. It certainly is an active debate. I think 
there are those who have said that Chinese actions today are 
really jumping the gun, and that China should slow down and 
seek to walk the dog back. But there is clearly an active 
component of that debate that says that China should push 
forward.
    Ms. Glaser. Yes, Congressman Berman, very good question. 
Thank you for that question. I agree with Dr. Yoshihara in some 
regards, but I believe that the resource question here is very 
critical. The Chinese believe that other countries in the 
region are developing these resources in what the Chinese view 
as disputed areas. And they are no longer going to tolerate it.
    The leadership does have to balance the growing nationalist 
sentiments against the longer term need to have good relations 
with its neighbors. But I think that the Chinese believe that 
if they can intimidate the United States, and I would agree 
with Mr. Brookes that they see the United States as weak and 
potentially in decline, they can compel their neighbors to 
accommodate to China's rise and to respect Chinese core 
interests. And I do believe that we need to stand up to that, 
and the nations in the region need to stand up to that.
    Mr. Berman. But does that provide an opening for a strategy 
of joint resource development, something that the U.S. could 
seek to encourage and facilitate?
    Ms. Glaser. Absolutely. And I mentioned that in my oral 
remarks. I do believe that resource development by all the 
countries, all of the claimants, would be a very, very good 
outcome. But the preconditions are that there must be a setting 
aside of sovereignty claims. And at the moment, that appears to 
be quite difficult.
    If we can get all of the claimants first to agree to set 
aside sovereignty and begin to put forward some good models of 
resource development--and there are a few that already exist, 
for example--but none that include China, then perhaps China 
could be brought along. But I think joint resource development 
would be a very positive outcome.
    Mr. Cronin. Thank you, Congressman Berman.
    In the interest of time, I didn't round out my full 
statement, which is in my written statement, but it would seem 
at this point yes, China is sort of losing, running amuck and 
losing a sense of the politics of the region and what kind of 
relationship it wants to have with its neighbors.
    But I also think this is a very peculiar time right now. 
This has been a summer of many different voices in China, many 
different power centers being active. And now we have this very 
strange situation of the presumed next premier and party leader 
disappearing.
    Mr. Berman. It is a bad back. Everybody can understand 
that.
    Mr. Cronin. A bad back, right.
    I mean, a lot of things are going on in China's politics 
right now. And one of the things, the international crisis 
group, a point that they have made and others have made, there 
are like seven different agencies and departments involved in 
making and carrying out Chinese policy in the South China Sea, 
maritime policy. There is a big coordination issue there.
    Now, having said that, you know, it does look like this is 
receding right now in terms of China's concerns, that is 
relations with its neighbors. However, there are a couple of 
practical issues, I think, that do argue for the possibility of 
joint development. And one is, for instance, all of the 
countries understand the issue, including China, of fishery 
depletion and the need to do something about that. And China 
imposes unilaterally fishing bans and the neighbors don't like 
that. But in general, the neighbors have a common interest in 
that.
    The other thing is the oil and gas. You can't just barge in 
and get the oil and gas out without big problems. Just if I 
could to say, one thing about setting aside sovereignty, which 
Bonnie has mentioned, yes, the problem so far, though, is there 
have been three or four different initiatives with co-
development, including one with the Japanese. And in every 
case, the issue is China keeps insisting--in other words, China 
is saying to its neighbors what is mine is mine; what is yours, 
we can co-develop because it keeps insisting on the sovereignty 
issue.
    Mr. Berman. Got it. Mr. Brookes.
    Mr. Brookes. In Beijing's mind, the South China Sea is not 
disputed; it is Chinese territory. I mean, this goes back to 
when they would have their historic claims, they would base 
this on the Republic of China's claim going back to the 1930s 
and maps that were developed then, and even in the 1940s. They 
are hoping for acquiescence.
    These fishery ships, these maritime patrol vessels are 
basically wolves in sheep's clothing. They will militarize the 
situation if they have to. But my view is they are trying to 
prevent counterbalancing because this falls into everybody's 
fears about China. And so what they are doing is if people will 
give, they will take. What they really don't want is major 
powers and the United States to seriously counterbalance 
against China's efforts in Asia, East Asia generally.
    Chairman Ros-Lehtinen. Thank you, Mr. Berman.
    Mr. Kelly, the vice chair on the Subcommittee on Asia and 
the Pacific is recognized.
    Mr. Kelly. Thank you, Madam Chair. And thank you all for 
being here today.
    On August 6, Taiwan's President Ma issued an East China Sea 
Peace Initiative which calls upon all the parties to--the chair 
will dispute--in the East China Sea, to put aside their 
differences, embark on a peaceful dialogue and cooperate to 
develop natural resources in the area. We will start with you, 
Mr. Brookes, how do you assess President Ma's initiative?
    Mr. Brookes. I was actually in Taiwan last week. He also 
made a trip to the Diaoyutai Islands, which some people 
consider to be somewhat provocative. I have looked at this East 
Asian Peace Initiative, and he basically says put sovereignty 
aside and let's try to co-develop these sort of things. China 
and Taiwan's claims are basically the same, going back to the 
Republic of China. I think any good idea should be looked at.
    The question is whether the Chinese are willing to work 
along with them, or work with them. In fact, I understand the 
Chinese have actually approached the Taiwanese about working 
together because their claims are the same.
    I think we should look at any opportunity. Unfortunately, I 
am a bit skeptical about the possibilities of negotiations 
based on what we have seen through ASEAN most recently. Efforts 
at code of conduct, China's unwillingness to work 
multilaterally and preference for bilateral talks.
    Mr. Kelly. Thank you.
    Dr. Cronin, any feeling on that?
    Mr. Cronin. Again, that is out of my area.
    Mr. Kelly. Okay. Ms. Glaser?
    Ms. Glaser. Thank you for the question, Congressman. I also 
was just in Taiwan a couple of weeks ago, and discussed this 
proposal with President Ma and his advisers.
    I would agree with Peter that any good proposal should be 
looked at. But truthfully, it is quite difficult for Taiwan to 
be an actor regionally, or in the international community if 
there is to be a code of conduct that will guide behavior in 
the South China Sea, Taiwan is likely to be excluded, and that 
is really quite unfortunate.
    I think the most useful thing that Taiwan could do would be 
to bring this nine dash line, which was originally an 11 dash 
line, created in 1947 by the Republic of China, if they could 
bring their claim into in accordance with international law, it 
would set a model for the mainland, and I think that then the 
ASEAN countries perhaps would be more willing to work with it 
because they would see Taiwan as a constructive actor in a very 
important way.
    Mr. Kelly. Doctor, anything different?
    Mr. Yoshihara. I actually see the China's sort of very, 
very expansive claims as part of its strategy. It is trying to 
move the ball forward by making all kinds of extravagant 
claims, whether it is historic or whether the entire South 
China Sea is a territorial sea. So I think it would be very, 
very difficult to negotiate on that basis.
    Mr. Kelly. My question, I guess, would be okay, so 
everybody does come to the table, the reality of that really 
working, and who would broker it? Who would be the arbiter? Who 
would sit down and work this out? Because the feeling I am 
getting is it is nice to talk about things in settings like 
this, but the reality of it is the toughest guy in the 
neighborhood kind of runs the policy for the neighborhood. I 
know we tiptoe around these different things because we 
sometimes don't think it is politically correct. I don't think 
there is any question about what China's intentions are and 
where they are going.
    Mr. Brookes, thanks for saying it is not an emerging power; 
it is a power. And I would also suggest that with our 
continuing loss of sovereignty and our own debt, we have 
weakened ourselves to the point where it is hard; it is hard to 
police the world when you are not the strongest guy in the 
world. And when you do resolution after resolution, we have 
become kind of a toothless tiger who continues to say what we 
are going to do and then backs off in the end.
    I am concerned, though, and you hit on it, because without 
a dynamic and robust economy, we cannot continue our presence 
in the world. It is just that simple. Now, sequestration is 
going to lead to the smallest Navy since 1915, the smallest 
ground force since 1940, the smallest Air Force in our history. 
That is not Mike Kelly saying it, that is Secretary of Defense 
Panetta. I just think at some point, we better wake up and 
smell the coffee. We are well past the midnight hour in this 
country to continue to talk about our role in the world when we 
have a diminished influence because we really don't have the 
ability at times to do what we say we are going to do.
    Now, having said all of that, where do we go with this? 
Seriously, where do we go with this? I don't see any reason for 
China to negotiate with anybody. Why would they? If they hold a 
lot of your debt and they are the strongest player in that area 
in the world, who would influence the Chinese?
    Mr. Brookes. I think the point here is that we have to work 
with like-minded powers in the region. We are just talking 
about the South China Sea today, but we have disputes in the 
East China Sea and the Sea of Japan. I think, once again, 
diplomatic reassurance, economic strength, and the ability to 
project military power into the region, and working with our 
friends and allies are the only things that can do it.
    I think the thing that China most fears is counterbalancing 
against it. And right now I think China has pursued a divide-
and-conquer sort of strategy. That is why they were successful 
in the last ASEAN meeting where they were able to prevent the 
South China Sea issue from being drawn up. But I think that we 
have to show leadership. We have to gather our friends and 
allies, and we have to oppose China on a number of fronts.
    Mr. Kelly. Doctor? I am really concerned about this. I 
think our ability to build coalitions is dwindling very 
quickly, when our allies continue to question our ability to 
really show up and help them on the day that they need the 
help.
    Mr. Cronin. Well, if I may, Congressman, I still don't 
think anybody in the region, and I will speak from what I know 
from people I have talked to in Southeast Asia, that believes 
that the U.S. isn't the strongest power still. And I don't 
think there is anybody in the U.S. military that doesn't 
believe that we are greatly, by multiples, stronger than China 
at this point in time. Whether or not they are a rising power, 
a current power, have been a power, I wouldn't want to trade 
the U.S. Navy and Air Force for any existing force.
    Mr. Kelly. I am not suggesting that. But I am suggesting 
this: If we ever go into a fair fight, shame on us. When we 
have the ability to be greater than anybody else in the world 
and defend ourselves better than anybody else, to go into it 
and saying we just want to be on an equal basis, believe me, I 
don't want them to come out of the locker room. I don't want 
them to get on the bus to come to even play the game.
    Chairman Ros-Lehtinen. Thank you, Mr. Kelly, thank you Dr 
Cronin.
    Before I recognize Mr. Faleomavaega, I would like to 
recognize our distinguished guests. We have 12 members of 
Parliament from Indonesia, Kyrgyzstan and Mongolia who are in 
attendance as part of the House Democracy Partnership, so we 
welcome all of you. Please stand. Welcome. Thank you.
    With that, Mr. Faleomavaega, the ranking member of the 
Subcommittee on Asia and the Pacific is recognized.
    Mr. Faleomavaega. Thank you, Madam Chair.
    I always have tremendous reluctance when we discuss this 
important issue concerning China because it is not as simple as 
we make it to be. I always try to remind my colleagues that 
when China became an independent nation in 1949, there were 400 
million Chinese living in China. It took us 226 years to reach 
a population of only 320-some million. So now we are dealing 
with a country that is 1.3 billion people. So if you want to 
look at it from that perspective, I think we have to be a 
little more soul-searching in terms of what we are trying to do 
in handling this important nation.
    I want to ask Dr. Yoshihara, we currently operate the 
largest military command in the world. It used to be called 
CINCPAC but it is now Pacific Command. It stretches from 
Madagascar, the entire Indian Ocean and the entire Pacific 
Ocean, and it goes all of the way to Central and South America, 
with about 220 ships and 240,000 Marines, Army and military 
personnel and is administered by a four star admiral out of 
Pearl Harbor.
    It is my understanding, and correct me, Dr. Yoshihara, 
maybe the others can correct me on this, the United States 
currently has over 700 military installations both in and 
outside the United States. My understanding is that China does 
not have one military base anywhere outside of China. Now, I 
don't know if that balances. I liked Mr. Brookes' comment about 
counterbalancing. We used to think of the Monroe Doctrine--
remember the Monroe Doctrine? Any country that dares come to 
our hemisphere of influence, get out. And now this pivoting, 
new--and I don't consider it new foreign policy that we have, 
that we are now trying to contain China. China just barely got 
this aircraft carrier from the Ukraine. We have 11 aircraft 
carriers. What are we doing with them? So to suggest that we 
are becoming a declining world power, I beg to differ with this 
assertion.
    Dr. Yoshihara, is Admiral Mahan's theory still relevant 
today? The country that controls the seas controls the world, 
just as the British have proven it to be in their history?
    Mr. Yoshihara. Certainly the Chinese think so. The Chinese 
read Admiral Mahan's theory. I have an entire bookshelf that 
has multiple translations of his works in China. And we really 
only have one. And the only reason why that one is in print is 
because of the Naval War College. So there is a real 
intellectual shift and enthusiasm for Mahan's theory, and in 
particular this notion that wealth begets power, power begets 
more wealth.
    As to your point about U.S. naval power, yes, it is true. 
On paper, the United States is much more powerful than China. 
But I think if you look at our global--the range of operations 
that we have to conduct around the globe, we are stretched 
thin. And the prospects of our shipbuilding patterns to 
increase are fairly low. And of course, we have to fight the 
tyranny of distance, which was just mentioned.
    Mr. Faleomavaega. So are you suggesting that we should 
reduce the $500 billion reduction that President Obama 
suggested for the 10-year period of our defense budget? Do you 
think that maybe our defense budget needs to be part of the 
overall deficit reduction process that we should be going 
through as a country?
    Mr. Yoshihara. I would suggest that in the environment 
which we will be facing in the China seas, it is going to be 
much tougher to maintain presence and to maintain our 
operations. So we need to have redundancy, and we need to have 
the capacity essentially to take greater risk in China's 
maritime domain.
    Mr. Faleomavaega. Ms. Glaser?
    Ms. Glaser. Yes, thank you, Congressman. I agree with you 
we shouldn't make the Chinese 10 feet tall; but we do have to, 
I think, be aware that the Chinese take advantage of what they 
see as U.S. weakness when they see it. We can look back in the 
period in the Vietnam War when the United States pulled out. We 
can also look at when the U.S. withdrew from Clark and Subic 
bases in the Philippines.
    Mr. Faleomavaega. My time is running out. I would love to 
continue that dialogue.
    Here is the problem: The 10 ASEAN countries are weak 
militarily. They are looking to the United States for help. The 
point here is are we going to be able to do this? In my humble 
opinion, we have got some very serious problems. We are 
literally the policemen of the world, if you want to put it 
that way. And I want to ask Mr. Brookes, is this what we should 
be doing continuously? We fought two world wars. We got into 
Vietnam and Korea. For 10 years we have been in this quagmire 
in Iraq and Afghanistan. So what does this do with our overall 
defense posture? Is it really defending the interests of our 
people?
    Mr. Brookes. Quickly, I guess I have 10 seconds, that is 
the purpose of our national defense, to protect and advance 
American interests. Now, we can disagree on what those 
interests are. But I think that is where we should be.
    Mr. Faleomavaega. I am sorry, Madam Chair, my time is up.
    Chairman Ros-Lehtinen. Thank you very much, Mr. 
Faleomavaega. Mr. Turner of New York is recognized.
    Mr. Turner. Thank you, Madam Chair.
    Just a brief question, if you would, on North Korea. It has 
always been the tool or the surrogate of the Chinese since 
1950. What is that relationship right now? Is it strained with 
continued North Korean irrationality? What do we see going 
forward? Dr. Yoshihara, if you would?
    Mr. Yoshihara. That is not my area, so I will defer to the 
other panelists.
    Ms. Glaser. Thank you, Congressman, I will be happy to 
comment. I talk to a lot of Chinese about their relationship 
with North Korea. There were some signs of strain in the 
immediate aftermath of the death of Kim Jong-il. We have seen a 
warming trend in the relationship. There are suspicions on both 
sides, and the North Koreans in particular feel uncomfortable 
about their excessive dependence on the Chinese. The Chinese 
are not happy with North Korea's nuclear program. But at the 
end of the day, they prioritize stability. The Chinese are 
going to continue to maintain that relationship. It is a 
mutually dependent one. And the North Koreans will also 
continue to maintain that relationship. I think fairly soon, 
after the 18-party Congress in China, we will likely see the 
visit by the new North Korean leader, Kim Jong Un, to Beijing.
    Mr. Cronin. I think, Congressman, if you asked the Chinese, 
they would say they wished that North Korea was a tool or 
surrogate for them. But Bonnie is right, definitely there is a 
power relationship there. The status of North Korea is a buffer 
as far as China is concerned. But they are not exactly a 
country that can easily be manipulated by anybody, 
unfortunately.
    Mr. Brookes. I think in many ways North Korea serves 
China's purposes strategically. It serves as a buffer state, as 
Rich just mentioned, and I think there is a reluctance on the 
part of the Chinese, despite the problems that North Korea has 
provided for them, to allow a unification of the Korean 
peninsula. I think they are very concerned about a powerful 
Korea. They have some history as well. There is a lot of 
history in Asia, as we know, some of it very unpleasant. And I 
think they are worried about a united Korea that might be a 
friend to the United States and having American troops, perhaps 
U.S. Troops north of the 38th parallel. Remember what happened 
in 1950 with that.
    So I think there is a strategic element there as well. I 
mean, you can't change geography; geography is destiny. The 
Korean peninsula is attached to China, and they have strong 
strategic concerns about what happens there.
    Mr. Turner. Is there still a degree of trust? The North 
Koreans seem often irrational.
    Mr. Brookes. I would say that North Korea is quite rational 
in its own way. We see the world through a different paradigm, 
through a different lens, but they have been very successful in 
maintaining that repressive state for many, many years despite 
deprivation. Their rational may not be your rational; but they 
do have a thought process and a certain logic to what they do. 
And they have been successful in many ways in pursuing that.
    Mr. Turner. Would it be fair to say that you anticipate no 
change in that relationship in the foreseeable future?
    Mr. Brookes. I think we are all trying to find out what is 
going to happen with the new North Korean leader. There is 
always talk of reform. But every time I hear that, I say we 
have seen this movie before.
    I was in North Korea in 1988 as a Hill staffer for this 
committee, actually. And there were the same sort of little 
openings going on and private markets and things like that, but 
it was eventually shut down. So the last thing that they want 
to do is lose control, and regime survival is their highest 
calling, as it is with the Chinese communist party. So I think 
they might do some things. This is a young leader, but I sense 
power is probably what will most drive him.
    Mr. Turner. Anything to add? Otherwise, I yield back the 
balance of my time.
    Chairman Ros-Lehtinen. Thank you, Mr. Turner. Mr. Connolly 
of Virginia is recognized.
    Mr. Connolly. Thank you, Madam Chairman, and welcome to our 
panel. My friend from Pennsylvania, Mr. Kelly, is so articulate 
and so persuasive, he almost persuaded me that we are a third-
rate power in the world. And then I listened to my friend, Mr. 
Faleomavaega, and I was reminded that actually we are the ones 
with global reach. We are the ones with 11 carrier groups. And 
we are the ones that spend more money on any basis you want to 
measure it by than anybody on the planet in terms of defense.
    So, Dr. Cronin, you were trying to respond and you ran out 
of time to Mr. Kelly's assertions that we were apparently in 
decline, and he cited a number of statistics that he attributed 
to Secretary of Defense Panetta. I think Mr. Panetta was 
warning that if these trends continue, that may be where we end 
up. I hardly think Secretary Panetta was saying that our Air 
Force is now at the level of 1915 and our Navy at 1940 and so 
forth. Would you comment briefly to clear up the prowess, or 
lack thereof, of the United States military in the world?
    Mr. Cronin. Well, thank you. I don't think I can clear up 
that entirely because it would get involved in arguments about 
forces and force structures and capabilities, et cetera. But 
definitely, I don't think many people, including the Secretary 
of Defense, think that the United States is in any way in 
decline. And more as a political economist, I don't believe the 
United States economically is in the kind of decline that some 
people despair about. So I think we still have resilience. We 
certainly have military capabilities. The 1940s, let's say a 
1940 F-4 fighter, you could buy a lot of them today for the 
same money as a top of the line front line aircraft. But which 
one would you rather have? It is a different world.
    So I do think that the Secretary of Defense has been 
concerned, very concerned about the sequestration issue, and 
with good reason. But overall, I am not a declinist. I think 
that there are questions about sustainability in the long term, 
but I don't see any sign of a growing weakness on the part of 
the United States.
    Mr. Connolly. And if you might permit me an editorial 
comment, if sequestration is the crisis some of our colleagues 
make it out to be, and I am certainly concerned about it, then 
surely we would not have taken a 5-week recess in August, and 
surely, we are not prepared to take a 7-week, 4-day recess 
starting next week because it is a crisis. But that is a 
different matter.
    Ms. Glaser, I wonder if you can comment, we have sort of 
focused on what is our responsibility and what are our 
strengths and what are China's strengths. But what is the 
responsibility of countries in the region of the South China 
Sea? What is Japan prepared to do? What are the Philippines 
prepared to do? What is Vietnam prepared to do when they 
believe that their sovereignty has been encroached upon? Ms. 
Glaser, and I see Dr. Yoshihara is also prepared to comment.
    Ms. Glaser. I will be brief and leave some time for my 
colleague.
    I think you are absolutely right, that the countries in the 
region do have obligations as well. One obligation they have is 
to have greater situational awareness in their waters. This is 
something that the United States is trying to assist the 
Philippines in doing. Right now we are helping them, for 
example, by intelligence sharing. We are actually also helping 
them to develop the capability to do that by themselves. We 
have also transferred a cutter to the Philippines. They have an 
obligation to maintain that equipment now that they have 
acquired it.
    The other thing that I would say is that all of these 
countries in ASEAN have the obligation to work together, to be 
more proactive and to agree how they are going to cope with the 
pressure that China is putting on them, because if they are not 
united, the Chinese will easily be able to divide them and win 
in this game.
    Mr. Connolly. Before Dr. Yoshihara comments, Mr. Brookes 
made the point, and I thought a very insightful one, the 
Chinese are counting on acquiescence, and it seems to me the 
key in the region is not to acquiesce. And that requires a 
strategy. That requires intestinal fortitude. The United States 
can be part of that strategy, but the idea that we are the 
substitute for that strategy is just not going to work.
    Ms. Glaser. Absolutely.
    Mr. Connolly. No matter how strong we are or the Chinese 
are weak. Dr. Yoshihara.
    Mr. Yoshihara. Absolutely. We need to make the regional 
partners basically the first responders to Chinese 
encroachments and maneuvers at sea. And I think our help with 
the Philippines is a good start, but it is really a very modest 
move. What we need to do is to give the Philippines more 
capabilities that would give them the capacity both to monitor, 
but also to challenge Chinese movements at sea.
    With regard to Japan, I think the keyword is resilience. 
The capacity essentially to withstand a first Chinese strike, 
for example, and enable the alliance to rapidly recover and 
retake command of the commons, for example. I think those are 
the kinds of things that are not only necessary, but, in fact, 
imminently doable in financial terms.
    Mr. Cronin. If I could, one of the problems with the 
Philippines, of course, is we can try to help them build their 
capacity, but they can't afford to operate what we want to give 
them or sell to them at cut-rate prices.
    When it comes to acquiescence, there is a certain element 
here that needs to be kept in mind, and that is that China can 
push and China can bully and China can try to dominate, but at 
some point they back countries into a corner. And I would give 
Vietnam as an example. They are not going to acquiesce. I am a 
Vietnam veteran. It is quite a turn of the world to see our 
evolving relationship with the Vietnamese right now. There are 
some problems with it, but nonetheless, they have joined the 
TPP talks, they are talking to us about weapons acquisition, et 
cetera. But even more than that, if you look, you can find on 
YouTube a Chinese film of their attack on Vietnam's forces in 
the Spratlys in 1988. It is a brutal thing to watch. They mow 
down the Vietnamese standing in waist-deep water on a reef. But 
if you look at that and you see what the Vietnamese have done 
with that film, they are not going to be pushed out. Again, you 
can't just go drill on someone else's continental shelf or EEZ 
without big problems because drilling is a much more vulnerable 
activity. Fishing, that is a different matter.
    Mr. Connolly. Thank you. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Connolly.
    Mr. Rohrabacher, the chairman of the Subcommittee on 
Oversight and Investigations is recognized.
    Mr. Rohrabacher. Wasn't it the Paracel Islands that the 
Vietnamese and the Chinese had to face off and not the other 
islands?
    Mr. Cronin. I am sorry, sir?
    Mr. Rohrabacher. Wasn't it the Paracel Islands that you 
were talking about?
    Mr. Cronin. Well, in 1974, China attacked the waning South 
Vietnamese Government and captured some important reefs on the 
Paracels, which gave them control of the Paracels. In 1988, 
they attacked, I think, it was Johnson Reef in the Spratlys.
    Mr. Rohrabacher. So it was the Spratlys. So the video you 
were talking about----
    Mr. Cronin. That was on the Spratlys in 1988.
    Mr. Rohrabacher. Oh, it is. I have seen that video.
    Mr. Cronin. Yes. It is pretty rough, isn't it?
    Mr. Rohrabacher. Yes, it certainly is.
    Dr. Yoshihara, you mentioned that we have seen double digit 
hikes in military spending in shipbuilding on the part of China 
over this last decade or two, while at the same time, American 
shipbuilding is going down and our Navy is shrinking. Don't you 
think there is another dynamic to what is going on here? The 
fact is, how is China paying for those ships? We have seen 
decades where we have sat and watched the most historic 
transfer of wealth and power from one country to another, from 
the United States to China, and we were told that we had these 
trading rules and these rules of economy because it would 
promote a more peaceful world. They would become more 
benevolent as they became more prosperous. Is what we are 
saying now is that theory that has been proven totally wrong, 
and in fact, that money that was transferred, the wealth that 
was created in China by our investment, by the permitting of 
the technology transfers, et cetera, now hasn't that resulted 
in a less peaceful world and a more risky world?
    Mr. Yoshihara. Right. I think one of the enduring 
assumptions underlying U.S. policy toward China has been that 
long-term engagement, both economic, diplomatic, and otherwise 
will essentially sort of mellow out the Chinese regime.
    Mr. Rohrabacher. Tame the dragon?
    Mr. Yoshihara. That it will gradually change China from 
within. That has been a consistent policy, I think, across all 
administrations. But now what I think we are beginning to hear 
is whether this is really more of feeding the beast? I think 
the point about that is that this resource mismatch is 
beginning to put pressure on us. We like to talk about the 
pivot and the rebalance. We have to keep in mind that the pivot 
or the rebalance is really a redistribution of existing forces; 
right? This is not really a major buildup on our part overall; 
whereas China has the deep pockets to keep building across the 
board, all kinds of capabilities that can go to sea and take to 
the air.
    Mr. Rohrabacher. And their deep pockets was what I was 
trying to stress, comes from the fact that we have accepted 
economic policies that resulted in this massive transfer of 
wealth. It is no surprise that this has happened. I mean, some 
of us have been talking about it for decades. I have been here 
for two decades talking about this. We are giving them, they 
are using all of our R&D. They are stealing it, or our own 
companies are investing there and building high-tech companies 
and providing them what they need to develop more wealth for 
their society. And like you say, instead of taming the dragon, 
we have been feeding the beast.
    Let me see what I have here. I am sorry, but I been running 
back and forth between two hearings today.
    Do you think that the Chinese, at this point, unless the 
United States, and we are talking about this pivot to the 
Pacific, if we don't show our military strength and are 
unwilling to actually have some of these confrontations, like 
in the Spratlys, will that lead to an even more dangerous 
world? Or are we talking about maybe the United States 
shouldn't be confronting this greater Chinese Navy? Whoever 
wants to answer that.
    Ms. Glaser. Congressman, I think it is very important for 
the United States not just to have a military presence, but 
also the economic and the diplomatic engagement. I would say 
especially economic. We really need to expand our economic 
relationships with these countries to move forward with TPP. We 
are being marginalized by all of the other countries 
negotiating very low quality FTA agreements.
    Mr. Rohrabacher. Let's note that we have engaged and we 
have encouraged our businessmen to invest in a dictatorship, 
the world's biggest human rights abuser, while other countries 
like the Philippines and other countries that are democratic, 
have been struggling along. That type of skewed value system is 
coming back to haunt us now.
    Thank you very much, Madam Chair.
    Chairman Ros-Lehtinen. Thank you very much, Mr. 
Rohrabacher.
    Ms. Schmidt of Ohio is recognized.
    Mrs. Schmidt. Thank you. As this discussion continues, I 
become more concerned, and I need more education on the issue. 
My concern is understanding China is a long-term thinker, and 
so it will create a strategy in the region so that it can 
overtake it at a time when the rest of the world is least 
prepared to act. What I am saying is we are seeing, with 
President Ma of Taiwan, a more cozying up of a relationship 
with China. You saw that with the Beijing Olympics and being 
able to have air flights from Taiwan to China to make it easier 
for those that were going over there. Now you are seeing it 
with the waterways, trying to resolve those issues. And you are 
also seeing a much more direct link to economic ties where 
Taiwanese businessmen are actually setting up factories in 
China. That is one pivot there.
    But then you are also looking at the neighborhood and its 
inability, or its ability, to be able to handle its own affairs 
against China, including military affairs. Do they have enough 
military strength, military smarts, military capabilities? 
Also, what is their economic relationship in the area and how 
much of a tie do they have to China?
    Then you look at the United States and our indebtedness to 
China beyond the issue of sequestration, which may reduce our 
military overall strength, both in the short and the long run. 
My concern is that with all of these issues coming to attention 
here in this committee, what is our best way forward out of 
this in the 3\1/2\ minutes that I have left. And I probably 
would like to start with Mr. Brookes, because you have the 
military expertise, and then go on down the line.
    Mr. Brookes. Thank you. As I mentioned previously, I think 
one of the things is we have to provide diplomatic reassurance 
to our friends and allies in the region that we are going to 
have an enduring presence there. I think people are very 
nervous, not surprisingly so, and I think there are questions 
about the durability of American commitment in that part of the 
world considering there are so many other commitments; Iran, 
for instance, and the Persian Gulf and the issues there. And of 
course, our ability to project power, as you have talked about, 
the defense cuts that are looming. I mean, this is a big 
theater. We have talked about how many aircraft carriers we 
have, but they are not just operating in the South China Sea, 
they are operating around the world because America is a global 
power with global interests.
    But once again, and this is getting a little bit beyond my 
portfolio, but I think we need to revitalize our economic 
strength here at home, which will allow us to have that the 
diplomatic influence, diplomatic power, as well as being able 
to build a military capable of supporting or protecting and 
advancing American interests.
    Mrs. Schmidt. Let me add to it. I know that there is an 
economic dance between the U.S. and China because they could 
call in the loan at any time, and yet they need our goods and 
services over there at the moment to satisfy their emerging 
middle class. But at some point, they may pull that trigger 
which will undercut our ability to operate as a superpower; am 
I correct in that?
    Mr. Brookes. I have a different view of that. I think it is 
very unlikely that China will call the debt because since their 
currency is not convertible, they have to buy American dollars. 
When Chinese firms repatriate profits back to China, since they 
can't trade them, they have to trade them for RMB or yuan, and 
the Chinese have to buy something with it. So they can buy 
goods, American goods, agricultural, things like that, or they 
have to buy American debt. So I don't think that sort of threat 
is something that--it would probably collapse the American 
economy. I am not an economist, so this is a general--and I 
don't think that is in China's interest, considering we are a 
large export market of theirs. So I think it is a standoff.
    Mr. Cronin. Yes, thank you, if I could.
    On the issue of the debt, I think, and Peter started to go 
that direction, that it is actually a relatively small part of 
the total debt. There is no way to really call it in. The 
problem the Chinese have is something that we used to call a 
dollar trap. That is, you sell Treasury bonds and the value of 
the U.S. dollar goes down, and so you are cutting your own 
throat. The other point is, more basic, and it is, really, this 
is our policy, don't blame it on China, China is saying we buy 
stuff from them and they are saying okay, here, take our 
dollars and buy more. And the way they do that is by buying 
U.S. debt. And we are going along with that. So you want to 
blame Penneys, you want to blame Sears, you want to blame 
Costco, whoever, or the U.S. Government for those policies.
    But the other point is, and I think more important, is that 
China has a lot of problems, and China's manufacturing is 
falling. Exports are falling. Exports, in general, are falling. 
They have this huge domestic political issue. And the benefits 
of China's wealth have not been spread much beyond the coast 
and the military. So it is a very skewed and unbalanced 
political and economic system, and I think it is far less 
sustainable in the way that it is going right now than our 
economy for all its problems.
    Thank you.
    Ms. Glaser. I will just briefly speak, if I could, 
Congresswoman, to the military issue.
    Regardless of how much power projection capability we have, 
we do face a growing anti-access area denial threat. It will be 
more difficult for the United States, more costly, for us to 
operate in a conflict close to Chinese shores. As a result, we 
do need to take steps to improve the survivability of U.S. 
forces in the zones of potential conflict to prepare to operate 
effectively from greater ranges in the event that we have to do 
that.
    We have to encourage regional states to develop their own 
anti-access area denial capabilities. And then we have to work 
with the states in the region to develop asymmetrical 
capabilities and operations to counter these threats. Thank 
you.
    Mr. Smith [presiding]. The Chair recognizes himself for 5 
minutes.
    Ms. Glaser, you note that China's behavior in the South 
China Sea is deliberate and systematic. Dr. Yoshihara, you said 
that China's recent assertiveness in the South China Sea is the 
harbinger of things to come. And China has a coherent strategy 
approach, including the rise of an intellectual military 
complex. And, Mr. Brookes, you said that some in the Chinese 
elite view the U.S. as a declining power, and the perceptions 
are growing regarding America's lack of capabilities.
    My first question is, how well or poorly in your opinion 
has the Obama administration understood this ominous threat? 
Has there been a difference at the Pentagon versus the 
Department of State, and have we responded in an adequate way 
to this, as you put it, this ominous--this harbinger of what is 
happening? Whoever would like to start.
    Mr. Yoshihara. I believe that the pivot and the rebalancing 
is a good start. What it does is it signals our resolve. It 
also bolsters the confidence of our allies and our partners and 
friends in the region. But I think more can be done.
    As I said, the pivot and the rebalancing is really largely 
a redistribution of existing forces. When we send the littoral 
combat ship to Singapore, for example, that is actually read 
potentially as a sign of weakness on the part of the Chinese 
because they know that the littoral combat ship is not a ship 
for high-end conventional combat. And so some of our actions 
actually could be seen as a weakness and potentially more of a 
provocation than as a reassurance.
    So I think we need to be thinking about maintaining our 
resilience, maintaining our capacity to survive the anti-access 
zone and to essentially conduct operations continuously.
    Let me just add one other point. I think we need to show 
the Chinese that the open commons is a good thing for China 
because if China's neighbors adopted the same policies that the 
Chinese are implementing now, the biggest loser is China 
because of China's own tyranny of geography which is that it is 
close to choke points, and China cannot escape those choke 
points. And so what we need to do is demonstrate our confidence 
in the region by continuing our freedom-of-navigation 
operations to show that this is something that the Chinese can 
do too. So when the Chinese conduct freedom-of-navigation 
operations, we won't make a fuss about it and say this is 
potentially a win/win situation if we all have a stake in 
maintaining the open commons. Thank you.
    Ms. Glaser. Thank you, Congressman. I think that the Obama 
administration in its first year in office was perhaps a little 
bit naive about China and expected that the Chinese would step 
up and take a bigger role in helping to solve problems such as 
global warming and global proliferation of WMD. I think that 
the Chinese proved that they were not willing to work too 
closely with the Obama administration in some of these areas.
    I think that after that, the U.S. did get tougher. I would 
really commend the State Department and Secretary Clinton, I 
think that she has done an enormous amount of work, put in 
great effort, going to the region and trying to engage with all 
of these countries and demonstrate U.S. commitment. But our 
staying power is still in doubt.
    One of the most difficult challenges is that if we are too 
tough with the Chinese, then smaller states in the region get 
worried because they don't want to see U.S.-Chinese competition 
in their back yard. They don't want to be forced to choose 
between the U.S. and China. So it is a very difficult balancing 
act for the United States.
    Mr. Smith. Let me ask a second question if nobody else 
wants to touch on that one.
    I have held a number of hearings, and you said it yourself, 
Ms. Glaser, that China's propensity to flout international law 
and norms is worsening, and it sets bad precedents. Nowhere is 
that more apparent than in human rights. And, unfortunately, 
there has been a poor record in my opinion on the part of the 
Obama administration toward China on being consistent, 
transparent, and very aggressive in promoting fundamental human 
rights. With that said, and then that carries into the law of 
the sea and all of the other kinds of flouting that we see 
going on.
    One of the hearings I had last year around this time, we 
had Valerie Hudson who wrote a book called ``Bare Branches.'' 
That book is an insight into what the terrible consequences of 
population control will be in a whole host of areas. We know on 
trafficking it is a huge problem with the missing girls. But 
when it comes to instability at home, and the willingness and 
even the perceived necessity of projecting power, which the 
Chinese are creating the capability to do, and already have it, 
is another worrisome detail. Maybe you can shed some light on 
this, the State Department and the Pentagon, do they understand 
this instability? They have an economy that could implode soon 
because of the workers and the number of young people vis-a-vis 
older, and the missing girls. Huge, huge problems of 
instability. How is that playing? Do they understand it?
    Mr. Cronin. Well, I can't speak for whether they understand 
it or not. I would say that the most distinguishing feature of 
the last 2 years is that the State and Defense have been so 
close together on how they perceive the world and how they 
approach it from a policy point of view.
    I share your feeling, frankly, that China is a huge--has a 
huge internal problem. So I am actually not a fan of the idea 
that they will get richer and become more middle class and then 
their political system will change. So I do think China remains 
a very dangerous situation, if you will, creates a very 
dangerous situation. And has an unpredictability that we have 
to worry about which is why we need to keep our powder dry and 
why we need to, I think as Bonnie pointed out, there are 
certain particular strategic military responses that we have to 
make to China's growing capabilities, but we can do that. And I 
guess I am a little more confident that we can take care of 
that. Thank you.
    Mr. Smith. Mr. Brookes, you talked about in my last 
question, and I know I am out of time, about the aircraft 
carrier and that Beijing has a significant power projection 
platform to assert its interest along its periphery. How far 
does that periphery go, in your opinion? And you in your 
testimony, Dr. Yoshihara, you talked about the anti-ship 
ballistic missile and the other tools and weapons that Beijing 
has. Does anybody remember the Sheffield and the Exocet that 
took it out in the Falkland Islands. I read your testimony very 
carefully, Doctor. The last big sea battle was back in World 
War II. Do we have an undo sense of bravado and capability when 
other things could very seriously undermine it? Can you speak 
to, again, the aircraft carrier issue and the fact that they 
have other things?
    Mr. Brookes. China's power projection capability continues 
to expand. Once they put an aircraft carrier to sea, and my 
understanding is they have several others that are being looked 
at, and they have a fully operational air wing. It is just like 
ours. They still have that capability. And then when they put 
more, their ballistic missile capability is increasing 
significantly. They supposedly have a capability to take out a 
large, high-value target like and aircraft carrier with a land-
based ballistic missile. That is very troubling. I think the 
range is about 1,000 miles is what we are speculating at this 
point. They can cover the South China Sea. In fact, some people 
have speculated in the Department of Defense that some of the 
platforms that they are building are able to cover the South 
China Sea.
    The other issue, of course, is it is starting with the 
South China Sea. We can't ignore what is happening in the East 
China Sea where they have claims as well. So we have to look at 
it holistically and not just limit ourselves to what is going 
on down there.
    Mr. Yoshihara. If I may quickly comment, the Chinese 
actually have written extensively about the Falkland Islands 
War and trying to learn lessons from that particular conflict. 
One of the takeaways from that particular conflict was that it 
was a close-run thing. If the Argentineans had actually struck 
more ships, if they had been a little bit more aggressive in 
their use of their missiles and their aircraft and more ships 
were sunk, Britain would have been in a lot of trouble. And so 
I think this is a lesson that they are learning, that if they 
put our ships at risk at the same rate, for example, then we 
may be compelled to sort of back down.
    So again, I think we are cognizant of this challenge. We 
are exercising and thinking more about how to assert sea 
control and also to operate in a sea-denied environment. So I 
think we are moving in the right direction, but I think more 
work needs to be done.
    Mr. Smith. You did talk about littoral ships being 
deployed. Are you concerned that the Pentagon is buying 
aluminum ships? It is buying some steel, but some aluminum as 
well? I mean, that is what the Sheffield was. One Exocet 
missile took it out, and it burned like a Roman candle.
    Mr. Yoshihara. Right. I don't know sort of the technical 
aspects of it. But again, as I mentioned, the Chinese--some 
Chinese do not seem to take the littoral combat ship very 
seriously. They see that as more as a sign of weakness than a 
sign of strength.
    Mr. Smith. Thank you.
    The Chair recognizes Mr. Duncan, the gentleman from South 
Carolina.
    Mr. Duncan. Thank you, Mr. Chairman.
    One thing about sitting this far down on the dais is that 
most of the gritty questions have been asked. I think we have 
beat the issue up pretty good today about understanding that 
China is a presence that is exerting its influence all over. I 
believe that is gunboat diplomacy, and I think we are 
witnessing that in modern times.
    I think Ms. Glaser is correct, we don't need to make the 
Chinese out to be 10 foot tall. That is a great comment.
    But in basic grade school playground-style bullying, we are 
seeing the biggest player on the playground, so to speak, using 
its size and strength to exert their influence and try to get 
its way. I think the way to counter that and the way that we 
have been able to counter that is with the United States' 
strength both economically and militarily. So I just want to 
lend my voice to really the concern over sequestration and what 
that is going to do to the United States military. That has 
been brought out by a number of my colleagues today.
    I want to go back real quickly to my concern over the 
United States debt. We hit a milestone of $16 trillion in debt. 
I just want to remind the folks on the panel today that 
Proverbs is pretty clear in 22:7 that the borrower is servant 
to the lender. At what point in time will our debt be so large, 
and so large to one creditor that we are doing their bidding, 
so to speak? I think we have to be aware of that.
    The Chinese are building temporary structures in the 
Spratlys--pole buildings. They are driving T posts in atolls, 
putting signs up that it is Chinese territorial waters, I 
believe to try to claim the natural resources that everyone 
believes are there. The Philippines, the Filipinos are very, 
very concerned about that. They believe those resources are 
theirs, and they hope to garner that resource at some point in 
time. So we have talked about all of this. I guess the question 
I have for the panel, give me some solutions. What can we do? 
What should be done? I think the last question earlier I guess 
what Mrs. Schmidt was asking, you all answered that. Give me 
some solutions, Mr. Brookes.
    Mr. Brookes. I thought some of the things that have been 
said here today would be very constructive. I have tried to do 
it at the macro level, but some of the things Bonnie talked 
about were important. In other words, to make sure that we have 
the capabilities for the threats that we face, we need to 
mobilize our allies and friends to be able to deal with the 
potential for Chinese aggression.
    And another important thing is, of course, unfortunately, 
there are some stumbling blocks along the way, such as the 
capabilities of some of the potential partners in Southeast 
Asia and Japan. They have some treaty issues that would 
potentially prevent them from operating alongside others under 
collective self-defense in the South China Sea.
    But I think we have to do a strong effort, and I imagine it 
is probably being done, for people to understand, even in 
northeast Asia, that what happens in the South China Sea is 
going to affect them. Japan, I am not sure if this is still 
true, some 80 percent of their energy is imported and passes 
through the South China Sea area. If this becomes a Chinese 
lake effectively, I think there will be significant problems 
potentially down the road for Japan and Korea. So I think 
working together with allies and pooling our defense 
capabilities, and having a strategy is a basic thing that needs 
to be done.
    Mr. Duncan. Dr. Cronin.
    Mr. Cronin. One thing to think about is that these 
structures that they are building are very vulnerable. So it is 
not a case that they are building up something that is some 
impregnable thing. I think in this case we should keep in mind, 
and work with our allies and friends on the issue of the rule 
of law and the fact that those structures under the U.N. 
conference on the Law of the Sea, they are entitled to nothing 
but a 500-yard safety zone. In other words, they are on 
Philippines EEZ, some of them, on their economic zone, so they 
shouldn't be there. But technically, they have a right to be 
there so long as they don't try to exploit the resources. Well, 
obviously, they have more reason. It is not that they are going 
to follow those rules, if they have to, if they can avoid it. 
But I do think that there is a combination----
    Mr. Duncan. They are not a signer to any sort of U.N. 
treaty like that?
    Mr. Cronin. Pardon?
    Mr. Duncan. Even if China is not a signer, a signatory 
party to any sort of treaty?
    Mr. Cronin. They signed it but with the reservation that 
their nine dash line and all of their claims precede.
    Mr. Duncan. Gave them an out?
    Mr. Cronin. Right. But with the other countries, though, 
there is an affinity now between the U.S. and all of the other 
countries in the region which China has created. And that 
affinity is that all of the other countries accept sort of a 
rules-based international order. I think there are two 
different poles on this issue. One is the sort of very 
practical matter of what do you do about somebody sitting on an 
atoll and building this structure. But other is the issue of 
not what kind of world that we want, but what kind of world do 
the other countries in the region want? And so, you know, was 
it Bismarck who said politics of war is politics by other 
means. Well, politics is still a factor here, and relationships 
are a factor here. So, I think the United States has to take a 
strong position on these issues.
    China doesn't want an escalated conflict. That would 
totally create a problem.
    Mr. Duncan. Let me give Ms. Glaser a chance to answer.
    Mr. Cronin. So they are trying to get what they can without 
paying a price.
    Ms. Glaser. Thank you. I will be brief and concrete.
    First, I think, we do need a code of conduct. The 2002 
declaration on the conduct of parties in the South China Sea 
that was signed is not legally binding. It is voluntary. It has 
some useful provisions, but they are just not mandatory. We 
need a code of conduct that has a dispute settlement mechanism 
so if we have an incident like Scarborough Shoal, there is some 
panel, there is some way that the dispute can by diffused and 
resolved.
    Second, a mechanism on cooperating on fishing would be 
very, very useful. There is a serious problem with fish 
depletion. People are fishing further from their shores. 
Fishermen, their livelihood is being affected. So enabling 
fishermen to fish in these disputed waters I think would be 
useful.
    Finally, I will repeat what I said earlier, that I think 
there is a need for every claimant to define its territorial 
and maritime claims clearly. The Chinese are the most egregious 
in this regard, though there are some others that are not 
completely clear. And then agree to set aside these disputes 
and find models of joint development. Brunei and Malaysia, for 
example, are engaging in a joint oil development project, and 
we need to have more of these. If ASEAN can do this 
effectively, I think China can be brought into those kinds of 
arrangements.
    Mr. Duncan. Dr. Yoshihara.
    Mr. Yoshihara. Yes, I think we can think creatively. In 
fact, we can think asymmetrically about the problems. In fact, 
we can turn the tables on the Chinese by, I think, developing 
and focusing on our own anti-access forces in the region. We 
have heard from the panelists that China is not 10 feet tall. 
So, therefore, we should focus on some of their structural 
weaknesses, and they are weaknesses that they cannot repair in 
time. And there are two weaknesses--their anti-submarine 
warfare capability and their mine countermeasure capability. 
These are areas that they have always been very bad in, and 
they will not have the resources to fix those areas rapidly 
enough.
    Those areas happen to be our strengths. Our submarine force 
is one of the best in the world. And in fact, Japan has already 
made a decision to increase it submarine force by over 30 
percent. That is how worried the Japanese are, and we should, I 
think, be also focused on submarine warfare.
    And I would suggest that with the second element, that we 
need to revisit offensive mine warfare which we employed very 
effectively during World War II. These are the kinds of high-
end military capabilities that, again, would seek to deter the 
Chinese from taking on potentially dangerous, destabilizing 
actions.
    Mr. Duncan. Thank you, Mr. Chairman. I yield back.
    Mr. Smith. The Chair recognizes Mr. Kelly for one final 
question.
    Mr. Kelly. Thank you, Mr. Chairman.
    Mr. Brookes, I know there has been some conversation, not 
an awful lot, but about the Law of the Sea. And I know there is 
differing opinions on good, bad, indifferent and what it would 
be. This is a treaty that while we have been involved, we have 
never ratified. President Reagan was one of the ones who said 
he did not want to do it. Mr. Cronin, you kind of like it. This 
could probably be a whole panel discussion. Just plus and 
minuses.
    Mr. Brookes. I oppose it, and the reason I oppose it is the 
international seabed authority. I have no problem with the 
navigational matters, and we abide by those matters as a 
standard maritime practice. But I am opposed to the 
international seabed authority which is this U.N. body which is 
based in Kingston, Jamaica, and the effects that might have on 
our extended continental shelf. But I have no problem with the 
maritime guidelines and territorial----
    Mr. Kelly. So that is your main objection?
    Mr. Brookes. That is my objection.
    Mr. Kelly. Very good. I will say this. Because some of the 
conversation over our debt, I have actually had the unique 
experience of actually running a business in the private 
sector, which a lot of my colleagues have not. The relationship 
to debt to equity, are you kidding me? It is not an issue? Only 
in this town do we really believe that debt is not an issue in 
our ability to sustain our way of life and our form of 
government. This has become incredibly amazing to me, that we 
sit back and think that you can just keep borrowing and 
borrowing and borrowing, and it really doesn't matter. And I 
know why the Chinese invest. Of course, we are still the best 
investment in the world. I don't think anybody is putting money 
in Greece right now.
    So a lot of this stuff is just kind of common sense. But 
what bothers me is if we really do believe that not 
controlling, not having sovereignty, control of our debt is not 
important, we have been asleep for way too long, way, way too 
long. This is just practical economics. This is economics 101. 
I hate to phrase it that way, but I have been amazed in my 20 
months here that there is somehow a disconnect between the 
amount of money that you owe and your future and your 
sustainability. So that is something that is incredible.
    Now, the other thing I want to say, we quote a lot of 
people today, and there was a Spanish philosopher, Santayana, 
who says, ``Those who cannot remember the past are condemned to 
repeat it.'' This is not a new issue in the world, what we are 
seeing happening. And I am very much concerned that somehow we 
believe that if we just pull the covers up over our head, that 
we will get past the midnight hour, and the skies will be blue 
again and the sky will shine and everything will just be hunky 
dory. It not going to work that way. I think, Ms. Glaser--oh, 
it is Doctor, you say, ``Fortunately, there is still time to 
maximize the convergence of interests and organize an effective 
response. China is at least a decade away from amassing the 
type of preponderant sea power that keep the United States out 
of the South China Sea.''
    Now, my references early on to Secretary of Defense Panetta 
deal with 10 years away. There is kind of a convergence that is 
happening. In 10 years, you say China could be at that rate. In 
10 years, the Secretary of Defense says that we will have the 
smallest Navy since 1915, the smallest ground force since 1940, 
and the smallest Air Force in our history. There is in the 
future a coming together with history and the facts of the 
past. And I really am concerned, as we look into the future, 
that we somehow seem to think that we can have a blind eye to 
what is happening and think it is going to be all right. We 
have seen this happen before. There is countless examples 
throughout history. And to sit back now and think that somehow 
we can wish this away. I will tell you this: In my lifetime, 
what I have experienced in this part of the world, they are 
wired differently than we are. Okay?
    Playing nice is fine. But a lot of people consider our 
kindness as weakness. And when the United States stops being 
the strongest player in the world, our allies stop looking to 
us because we really can't protect them. So a lot of the things 
that we see coming I think are absolutely essential that we 
recognize what the new dawn is bringing. And to sit here and 
think that we don't have to address that. It is great to have 
these discussions in a panel like this. In the real world, if 
you don't come to some really strong conclusions and some 
strong responses to it, you are doomed.
    I thank you all for being here today. I really do. And I 
don't know how long it is going to take before we wake up. 
There is things happening around the world, we have just seen 
it the last couple days, this is absolutely crazy what is going 
on. And we continue to think it is going to be all right. It is 
not going to be all right. We need to be the strongest player 
in the world, not because we wasn't to take over the world, but 
that we are the only ones that can protect the rest of those 
out there that are weak. So I thank you all for being here. Mr. 
Chairman, thank you for indulging me.
    Mr. Smith [presiding]. Thank you very much, Mr. Kelly. Let 
me just conclude, and perhaps you might want to speak to this 
very briefly, but the issue of China's motive. We know there is 
a profit motive, there always is, the need for oil, the need 
for scarce resources. But I have been struck for years by the 
hearkening back to the opium wars that I hear all the time. I 
watch China's channel here in Washington and I am amazed how 
many documentaries there seem to be on that. When the big 
censorship issue was very front and center, it has not abated 
one bit, but now it is no longer Google, it is others, if you 
typed in torture, you got the horrific atrocities committed by 
Japan against Chinese citizens. Nothing about their systematic 
use of torture, of course. And you got something about 
Guantanamo. But that is all you got. And it seems to me that 
Japan really needs to have a great deal of concern, which as 
you pointed out, Doctor, they are beefing up their expenditures 
for defense. But perhaps you could take it and write back, 
because it is late, but the issue of motive. This is not--you 
know, a democratic China we have no fear of. But a dictatorship 
that controls the propaganda machine and does so as effectively 
and adroitly as Beijing does, we have reason to be concerned. 
And especially when they bring up these pasts as if they were 
yesterday. Your thoughts? Does that drive them?
    Mr. Brookes. I think we have to be conscious of history. 
You can deny it, but you can't escape it. That is all I would 
say on that. And we have to be understanding of other cultures. 
I think it is critically important to get a sense of where they 
are coming from, and to better understand and to increase the 
chances for peace and stability.
    Ms. Glaser. I would share your concerns about essentially 
the victim mentality in China, this looking back at the period 
where they were exploited. This is a function, in large part, 
of education in the Chinese system. So it is access to 
information and the lack of it, absolutely. And then it is also 
education in the schools. I have heard 5-year-old children 
singing anti-Japanese songs. Surely they don't really know what 
they mean, but they grow up to understand that. And they watch 
these documentaries on TV. So the nationalism is really stoked 
by the government. And I think that is really quite dangerous.
    Mr. Yoshihara. If you read mainstream Chinese scholars 
about what China wants to be when it grows up, there is a 
growing school of thought that China does, in fact, want to be 
a world power, if you are talking about motives. Many of them 
say they like the system run by the United States, this liberal 
international order. But all of them say, I think with the 
caveat, that yes, they like the system--after all, China has 
benefited most from it--but that they would like to change this 
from within when they get strong enough, because China was not 
present at the making. And that they want to make the rules 
change so they benefit China because the rules currently 
benefit the United States.
    So if you want to think broadly about what China really 
wants when it becomes a world power, those are the kind of 
things that I think we should be looking out for. And China's 
claims over the EEZ, I think, is part of this pattern of 
eroding and changing the rules that have underwritten this 
current liberal international order.
    Mr. Cronin. Yes, I agree. I think that it is easy enough to 
say remember history, but history has different 
interpretations. And so we need to put each other--it is 
helpful for us to put ourselves in the other countries' shoes 
only to understand where they are coming from, how does their 
mind work? How do they process these issues? And I think really 
the most important thing the United States can do, and 
particularly relatively cheaply, is try to understand where 
these guys are coming from, what is driving them. And also, to 
remember that we have got some problems with our alliance 
relationships as well. I mean, the Japanese, you can criticize 
the Chinese for bringing up history, but go talk to the right 
wing in Japan and you will find that, you know, some of them 
haven't learned anything since World War II. So that is also a 
problem. But I do think understanding the other party, the 
enemy, however you want to call it, is vital. And understanding 
ourselves and being honest with ourselves about what we want 
and what we are willing to pay for.
    Mr. Smith. On that note, thank you so very much for your 
extraordinary testimony and incisive comments. The hearing is 
adjourned.
    [Whereupon, at 12:06 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


   <F-dash>\<F-dash>a<script-l><box><pound><acctof>ava<box><bullet>a 
                      stat<box><acctof><box><Rx>t\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                      stat<box><acctof><box><Rx>t\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


          <F-dash>\<diamond><brit-pound><natural>t<pound><Rx> 
                     <because><F-dash><Register>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



           <F-dash>\__<pound>s<star><careof><Rx>a<natural>a 
                <natural><box>s<sharp><pound><Rx>s<box>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



            <F-dash>\<r-because><script-l>as<box><natural> 
                <natural><box>s<sharp><pound><Rx>s<box>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


         <F-dash>\<Copyright><natural><pound><Rx><careof><Rx> 
                <natural><box>s<sharp><pound><Rx>s<box>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

[Note: Material submitted for the record by the Honorable Dan Burton, a 
Representative in Congress from the State of Indiana, is not reprinted 
here due to length limitations but is available in committee records.]

                                 <all>

</pre></body></html>
